                                                       NATIONAL SCIENCE FOUNDA nON
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESnGAnONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 110020006                                                                    Page I of I



         We assessed an allegation of plagiarism in an NSF proposal. 1 The allegation claimed that the
         proposal was not written by the PI or coPIs. A University inquiry established that composition of
         the proposal was a group effort, and that the contributions of the complainant were properly
         acknowledged. There is no support to an allegation of plagiarism. We assessed an inconsistency
         in the proposal about the employment status of a senior scientist. We established that the
         proposalJ's PI and coPIs did not know that the University had terminated the employment of the
         senior scientist a few weeks prior to proposal submission. We also learned that said senior
         scientist had entered into a volunteer agreement with the University at the time the proposal was
         submitted. NSF's program officers characterize this as a minor issue not relevant to the review
         of the proposal, and there is no rationale for further inquiry.

                   Accordingly, this case is closed.




                   1 Redacted.




NSF OIG Form 2 (11102)
